TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Estate Tax Collection Process Has
                  Improved, but Opportunities Exist to Better
                   Ensure Taxpayers Are Treated Equitably



                                      September 24, 2007

                              Reference Number: 2007-30-174




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 24, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Estate Tax Collection Process Has Improved,
                             but Opportunities Exist to Better Ensure Taxpayers Are Treated
                             Equitably (Audit #200630037)

 This report presents the results of our review to evaluate the effectiveness of the corrective
 actions taken in response to the recommendations in a prior Treasury Inspector General for Tax
 Administration report1 and to determine whether the Small Business/Self-Employed Division is
 ensuring that correct and necessary actions are taken to protect the Federal Government’s interest
 when collecting estate taxes.

 Impact on the Taxpayer
 The estate tax is imposed on the assets of a deceased person and is generally based on the value
 of the gross estate at the date of death. The Internal Revenue Service (IRS) is not consistently
 securing and recording special extended estate tax liens on certain estate tax installment election
 cases. Therefore, the Federal Government’s interest is not always adequately protected to ensure
 the taxes owed will be collected. In addition, the IRS does not always advise estate taxpayers of
 the status of payment extension requests. This results in additional taxpayer burden since
 taxpayers must initiate contact with the IRS to determine whether their payment extensions were
 granted.




 1
  The Internal Revenue Service Can Improve the Estate Tax Collection Process (Reference Number 2000-30-059,
 dated March 2000).
                        The Estate Tax Collection Process Has Improved, but
                      Opportunities Exist to Better Ensure Taxpayers Are Treated
                                               Equitably



Synopsis
Estate tax returns are required for only about 2 percent of all decedents and even fewer actually
pay a tax because of exclusions allowed from the value of the estate.2 In 2002, the IRS
centralized the processing of estate tax returns to the Cincinnati Compliance Center. We found
that management had taken corrective actions to address our previously reported conditions. For
example, a database system was implemented to improve controls for handling and monitoring
estate tax cases. In addition, programming changes were implemented to improve the timeliness
of billing estate taxpayers and to automatically update the Collection Statute Expiration Date3 on
estate tax cases.
However, some additional concerns exist. IRS processes are generally designed for a maximum
10-year payment period. Under Internal Revenue Code (I.R.C.) Section (§) 6166, qualifying
estates may elect to pay their estate tax liability over 14 years, which exceeds the 10-year period
during which the general Federal estate tax lien attaches to the assets of the estate. The IRS is
not consistently securing and recording I.R.C. § 6324A special extended tax liens on estate tax
cases to secure the Federal Government’s interest after the 10-year general estate tax lien
expires.4 Therefore, additional processes and controls for the 4-year period that extends beyond
the 10-year general estate tax lien period are required. There are two specific activities requiring
improvements. First, special lien monitoring controls require enhancements to ensure the
Federal Government’s interest is protected for estate tax cases in which installment payment
periods extend past the normal 10-year general estate tax lien period. Second, requests for
payment extension cases may be evaluated more effectively by the technical experts in the
Collection Advisory Office than by the less technical Cincinnati Campus Compliance Operations
staff. These payment extension requests should be reassessed to determine whether the cases are
being worked by employees with proper technical expertise. The current process allows
similarly situated taxpayers to be treated differently. In addition, from a customer service

2
  This exclusion amount varies depending on the year of death. For Tax Years 2004 and 2005, the exclusion amount
was $1.5 million. The threshold is scheduled to increase annually through Tax Year 2009, when it will reach
$3.5 million. The estate tax is eliminated in tax year 2010 and is reinstated in tax year 2011. For Tax Year 2011,
the exclusion amount will be $1 million. Estates required to file a Form 706 may owe no estate tax because of
allowed deductions.
3
  The Collection Statute Expiration Date is a time period established by law to collect taxes. The time allowed to
collect the deferred estate tax in an Internal Revenue Code Section (I.R.C. §) 6166 case is suspended during the
entire installment payment period, and begins to run again if the I.R.C. § 6166 election is terminated (e.g., for failure
to make one or more required installment payments).
4
  As a result of the Treasury Inspector General for Tax Administration’s prior report, the IRS began instituting
procedures to require a bond or an I.R.C. § 6324A lien from all estates making I.R.C. § 6166 elections. However, in
Estate of Roski v. Commissioner, 128 T.C. No. 10 (April 12, 2007), the Tax Court held that the IRS may not require
a bond or I.R.C. § 6324A special estate tax lien in every case but may determine on a case-by-case basis whether
credit risks justify requiring security to protect the Federal Government’s interest in the deferred estate tax.
Accordingly, a bond or special lien may no longer be required in every case.
                                                                                                                       2
                    The Estate Tax Collection Process Has Improved, but
                  Opportunities Exist to Better Ensure Taxpayers Are Treated
                                           Equitably


perspective, estate taxpayers are not being provided proper followup when their requests for a
payment extension have been granted. This can cause unnecessary taxpayer burden because the
taxpayer may have to contact the IRS to determine whether the extension was granted.

Recommendations
We recommended the Director, Collection, take steps to enhance the internal controls on the lien
tracking system currently in place for I.R.C. § 6324A special estate tax liens. Procedures and
guidelines should be provided to all employees advising them of the entering and monitoring of
liens on this system. Guidelines should be updated to reflect the use of this system and interim
guidelines should be issued immediately. Additionally, periodic reconciliations should be
performed to ensure all I.R.C. § 6324A special estate tax liens are being timely recorded and
released. The Directors, Collection and Specialty Programs, should reassess whether estate cases
requesting payment extensions are being worked by employees with the proper technical
expertise to ensure estate taxpayers receive equitable tax treatment and estate taxes are collected.
The Director, Specialty Programs, needs to update controls on I.R.C. § 6166 installment payment
cases to ensure that lien packages are sent to the Collection Advisory Office to determine
whether a bond or an I.R.C. § 6324A special estate tax lien should be secured. Additionally, the
Director, Specialty Programs, should notify the taxpayer when their payment extension has been
granted. Procedures should be developed to ensure estates requesting payment extensions are
sent a copy of the Application for Extension of Time to File a Return and/or Pay U.S. Estate (and
Generation-Skipping Transfer) Taxes (Form 4768) notating its approval and a letter explaining
the terms of the extension. In addition, Your Rights as a Taxpayer (Publication 1) should be sent
explaining the taxpayer’s rights.

Response
IRS management agreed with three of our recommendations and partially agreed with one
recommendation. They agreed to enhance internal controls on the lien tracking system for
I.R.C. § 6324A special estate tax liens and on the I.R.C. § 6166 installment payment cases to
ensure that lien packages are sent to the Collection Advisory Office. Management also will
review the process by which requests for payment extensions on estate tax returns are evaluated
and will resume notification of taxpayers when the requests for payment extensions are granted.
However, management concluded that a form letter indicating the approval date and terms of an
extension will suffice and require fewer resources than providing the taxpayer with a copy of
Form 4768. Management’s complete response to the draft report is included as Appendix IV.




                                                                                                  3
                    The Estate Tax Collection Process Has Improved, but
                  Opportunities Exist to Better Ensure Taxpayers Are Treated
                                           Equitably



Office of Audit Comment
Although IRS management did not fully agree with our recommendation to send a copy of
Form 4768 notating its approval to estate taxpayers, we considered their alternative corrective
action and found it to be satisfactory.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                                  4
                           The Estate Tax Collection Process Has Improved, but
                         Opportunities Exist to Better Ensure Taxpayers Are Treated
                                                  Equitably




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Estate and Gift Tax Program Has Implemented Corrective Actions to
          Address Prior Areas of Concern ...................................................................Page 3
          The System for Recording and Monitoring I.R.C. § 6324A Special Estate
          Tax Liens Could Be Enhanced to Ensure the Federal Government’s Interests
          Are Protected ................................................................................................Page 4
                    Recommendations 1 and 2: ................................................Page 7

          Requests for Extensions of Time to Pay on Estate Tax Cases Could Be More
          Responsive to Estate Taxpayers....................................................................Page 8
                    Recommendation 3:........................................................Page 10

                    Recommendation 4:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
           The Estate Tax Collection Process Has Improved, but
         Opportunities Exist to Better Ensure Taxpayers Are Treated
                                  Equitably




                       Abbreviations

ICS              Integrated Collection System
I.R.C.           Internal Revenue Code
IRM              Internal Revenue Manual
IRS              Internal Revenue Service
                         The Estate Tax Collection Process Has Improved, but
                       Opportunities Exist to Better Ensure Taxpayers Are Treated
                                                Equitably




                                                Background

The Federal estate tax is imposed on the transfer of the
property of a decedent at death. A United States                 In Tax Year 2006, there were
Estate (and Generation-Skipping Transfer) Tax Return          approximately 58,500 Forms 706
(Form 706) must be filed when the value of the gross           filed with a total balance due of
estate at the date of death exceeds the estate tax                    over $13.2 billion.
exclusion amount in effect under the Internal Revenue
Code (I.R.C.) Section (§) 2011. This exclusion
amount varies depending on the year of death,1 and acts as a threshold for filing an estate tax
return and for estate tax liability. Estates with property valued at less than the exclusion amount
are not required to file an estate tax return and owe no estate tax. Accordingly, estate tax returns
are required for only about 2 percent of all decedents and even fewer estates actually are required
to pay estate tax.2 Unless an extension of time to file is granted, Form 706 is due 9 months after
the date of death and is filed and processed at the Cincinnati Compliance Center. Under
I.R.C. § 6324(a), a 10-year Federal tax lien on all of the property in the gross estate
automatically arises upon the date of death. No recorded notice is required for this general
10-year estate tax lien to become effective, and it generally secures any estate tax that may be
determined to be due.
In Tax Year 2006, there were approximately 58,500 Forms 706 filed with a total balance due of
more than $13.2 billion. Estate taxes should be collectible in these cases since taxpayers must
have assets more than $2 million before an estate tax return is even required to be filed. Under
I.R.C. § 6166,3 if the value of the decedent’s interest in a closely held business,4 is more than
35 percent of the value of the adjusted gross estate and other requirements are met, the estate
may elect to pay the portion of the estate tax attributable to the closely held business in
installments over a period of up to 14 years from the date payment of the estate tax otherwise


1
  For Tax Years 2004 and 2005, the exclusion amount was $1.5 million. For Tax Years 2006 through 2008, the
exclusion amount is $2 million. The threshold is scheduled to increase to $3.5 million in tax year 2009. The estate
tax is eliminated in tax year 2010 and is reinstated in tax year 2011. For Tax Year 2011, the exclusion amount will
be $1 million.
2
  Estates required to file a Form 706 may owe no estate tax because of allowed deductions.
3
  Pub. L. 107-16, Title V, §§ 571(a), 572 (a), 573 (a), 115 Stat. 92, 93.
4
  Interest in closely held business is defined as: (a) a proprietorship that carries on a trade or business; (b) an interest
in a partnership that carries on a trade or business. A deceased partner’s interest must be 20 percent or more of the
total capital interest in the partnership or the partnership has 15 or fewer partners; and (c) stock in a corporation
carrying on a trade or business if 20 percent or more of the value of voting stock of the corporation is included in the
gross estate, or the corporation has 45 or fewer shareholders. An I.R.C. § 6166 election also must be made on a
timely filed estate tax return and the decedent must have been a citizen or resident of the United States.
                                                                                                                   Page 1
                         The Estate Tax Collection Process Has Improved, but
                       Opportunities Exist to Better Ensure Taxpayers Are Treated
                                                Equitably



would be due (usually 9 months after the date of death). Generally, the estate will pay annual
installments of only the interest on the deferred tax for the first 5 years,5 and then will pay
interest and principal in 2 or more, but not to exceed 10, equal annual installments. The interest
rate during the deferral period is less than the interest normally charged when other types of
extensions to pay tax are granted.
This review is a followup to a prior Treasury Inspector General for Tax Administration audit.6
The review was performed at the Cincinnati Compliance Center, Estate and Gift Tax Campus7
Operations in Covington, Kentucky, the Collection Advisory Office in Cincinnati, Ohio, and the
Specialty Programs Office, Estate and Gift Tax Program, Small Business/Self-Employed
Division in New Carrollton, Maryland, during the period February through May 2007. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




5
  Four payments of interest on the deferred estate tax are due during the initial 5-year period, no later than at the end
of the first, second, third, and fourth years, respectively, from the original due date for payment of estate tax. The
first installment payment of deferred estate tax, plus interest, is due no later than 5 years from the original payment
due date (i.e., at the end of the fifth year).
6
  The Internal Revenue Service Can Improve the Estate Tax Collection Process (Reference Number 2000-30-059,
dated March 2000).
7
  The data processing arm of the Internal Revenue Service (IRS). The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer
accounts.
                                                                                                                 Page 2
                        The Estate Tax Collection Process Has Improved, but
                      Opportunities Exist to Better Ensure Taxpayers Are Treated
                                               Equitably




                                       Results of Review

The Estate and Gift Tax Program Has Implemented Corrective Actions
to Address Prior Areas of Concern
In the prior Treasury Inspector General for Tax Administration audit, we reported that the
Internal Revenue Service (IRS) process for collecting estate taxes was not effective in protecting
the Government’s interest and in protecting taxpayers’ rights. IRS employees were neither
properly billing interest on payment extensions nor providing taxpayers who elect to pay estate
tax in installments under I.R.C. § 6166 the publication that explained their rights. In addition,
the IRS computer system did not calculate the Collection Statute Expiration Date8 correctly in
cases that had section I.R.C. § 6166 installment elections in place, causing tax amounts owed to
be abated prematurely or late. In Calendar Year 2002, the IRS consolidated its Estate and Gift
Tax Campus Operations at the Cincinnati Compliance Center.
In Calendar Year 2003, operations were improved when a centralized system was implemented
to control, monitor, and bill all I.R.C. § 6166 installment payment cases and extensions to file
and/or pay in other estate tax cases. The system is continually updated to provide management
with an internal control system that allows employees to monitor their own work and managers
to monitor the work of their employees. The system provides employees information on when
to send bills, notices, and letters and for other monitoring and informational purposes. In
February 2007, procedures were implemented to mail out Your Rights as a Taxpayer
(Publication 1) to estate taxpayers electing under I.R.C. § 6166 to pay a portion of their estate tax
in installments.
Other improvements to the program operations include eliminating a manual billing process for
requests for payment extensions and replacing it with an annual automated billing routine.
Another program change allows the Collection Statute Expiration Date in I.R.C. § 6166
installment payment cases to update automatically, so tax amounts due are no longer prematurely
abated or late. As a result of these changes, there has been a reduction in incorrect and late
billing.




8
  The Collection Statute Expiration Date is a time period established by law to collect taxes. The time allowed to
collect the deferred estate tax in an I.R.C. § 6166 case is suspended during the entire installment payment period,
and begins to run again if the I.R.C. § 6166 election is terminated, e.g., for failure to make one or more required
installment payments.
                                                                                                              Page 3
                       The Estate Tax Collection Process Has Improved, but
                     Opportunities Exist to Better Ensure Taxpayers Are Treated
                                              Equitably



The System for Recording and Monitoring I.R.C. § 6324A Special
Estate Tax Liens Could Be Enhanced to Ensure the Federal
Government’s Interests Are Protected
Under I.R.C. § 6166, a qualifying estate with closely held business interests may elect to pay the
estate tax liability attributable to the business in low-interest annual installments for a period of
up to 14 years. I.R.C. § 6165 permits the IRS to require that an estate post a bond to secure the
deferred estate tax in appropriate cases. In lieu of a bond, an estate may consent to provide a
special extended estate tax lien under I.R.C. § 6324A that lasts for the entire installment payment
period and any further time that the IRS may have to collect tax that may still be due after the
installment period. Securing an I.R.C. § 6324A special lien for the full term of the I.R.C. § 6166
installment payment period helps to ensure that assets are not sold or encumbered by other
creditors that might be able to obtain priority over the Federal Government’s tax claims during
the life of the installment payment period.

The Centralized Lien Unit’s system for recording liens could be enhanced
A limitation of the general estate tax lien provided in I.R.C. § 6324(a) is that it has an absolute
life of 10 years and cannot be extended. Where an estate has elected to pay the estate tax
attributable to its interest in a closely held business in installments over a period of up to 14 years
under I.R.C. § 6166, the IRS could be left without lien protection for 4 years or more if a bond or
an I.R.C. § 6324A special lien is not obtained and recorded with the appropriate local
government office before the 10-year period of the general estate tax lien has expired. The filing
and recording of an I.R.C. § 6324A special lien9 will secure the deferred estate tax for the entire
I.R.C. § 6166 installment payment period.
Estates make I.R.C. § 6166 elections to pay a portion of their estate tax in installments with their
Form 706 estate return that is timely filed with the Cincinnati Processing Center and directed to
Estate and Gift Campus Operations at the Cincinnati Campus for handling. A bond or an
I.R.C. § 6324A special lien may be required from estates making I.R.C. § 6166 elections where it
is determined that security is needed to protect the Federal Government’s interest in the deferred
estate tax.10 The Collection Advisory Office, which consists of a staff of technical experts on
estate tax collections, will send all information necessary to file and record I.R.C. § 6324A lien

9
  Notice Of Federal Estate Tax Lien Under Internal Revenue Laws (Form 668-J) will attach only to the property
specified on the recorded lien. Any property listed on the Form 668-J is automatically released from the general
estate tax lien.
10
   As a result of the Treasury Inspector General for Tax Administration’s prior report, the IRS began instituting
procedures to require a bond or an I.R.C. § 6324A lien from all estates making I.R.C. § 6166 elections. However, in
Estate of Roski v. Commissioner, 128 T.C. No. 10 (April 12, 2007), the Tax Court held that the IRS may not require
a bond or I.R.C. § 6324A special lien in every case but may determine on a case-by-case basis whether credit risks
justify requiring security to protect the Federal Government’s interest in the deferred estate tax. Accordingly, a
bond or special lien may no longer be required in every case.
                                                                                                           Page 4
                        The Estate Tax Collection Process Has Improved, but
                      Opportunities Exist to Better Ensure Taxpayers Are Treated
                                               Equitably



to the Centralized Lien Unit to be processed. Within 7 days of receipt, the Centralized Lien Unit
mails Notices of Federal Estate Tax Lien to the County and/or State recording offices for filing
and recording. The Collection Advisory Office is responsible for followup after 30 days to
ensure the lien has been properly recorded and that a copy of the recorded lien has been secured.
IRS processes are designed to track the 10-year general estate tax lien (I.R.C. § 6324(a)) that
attaches to the assets of the estate on the Automated Lien System11 by entry of the date the lien
arises (date of death). After 10 years, the Automated Lien System is programmed to show that
the lien has automatically expired. The Automated Lien System cannot be used to automatically
monitor the filing, recording, and release of I.R.C. § 6324A special liens. The system used by
the Centralized Lien Unit at the Cincinnati Campus to control and monitor I.R.C. § 6324A
special liens obtained in estate tax cases does not include information prior to September 2006.
In September 2006, the Centralized Lien Unit started tracking the special liens on an Excel
spreadsheet. However, management has not developed procedures or guidelines, nor can they
determine whether or not all I.R.C. § 6324A special liens obtained have been entered onto this
spreadsheet database. The Collection Advisory Office maintains an Integrated Collection
System (ICS)12 case in the name of the estate for which an I.R.C. § 6324A special lien was
recorded in a local governmental office until the special lien is released.
The accurate and timely recording of events is an important control activity. The Government
Accountability Office Standards for Internal Control in the Federal Government13 state internal
control should provide reasonable assurance that the objectives of the agency are being achieved
in the following categories:
     •   Effectiveness and efficiency of operations including the use of the entity’s resources.
     •   Reliability of financial reporting, including reports on budget execution, financial
         statements, and other reports for internal and external use.
     •   Compliance with applicable laws and regulations.
Internal control activities help ensure management’s directives are carried out. The control
activities should be effective and efficient in accomplishing the agency’s control objectives.
The IRS needs to enhance its current process to ensure a bond or an I.R.C. § 6324A special lien
is obtained and filed in all I.R.C. § 6166 installment cases in which the IRS determines that there
is a credit risk to the Federal Government and all special liens are appropriately monitored and
tracked. Where an estate has elected to pay the estate tax attributable to its interest in a closely
held business in installments over a period of up to 14 years under I.R.C. § 6166, the IRS could

11
   A comprehensive database that prints Notices of Federal Tax Lien and lien notices, stores taxpayer information,
and documents all lien activity.
12
   An automated inventory system used by Collection Office employees designed to provide management
information, create and maintain case histories, generate documents, and allow online approval of case actions.
13
   GAO/AIMD-00-21.3.1 (November 1999).
                                                                                                            Page 5
                        The Estate Tax Collection Process Has Improved, but
                      Opportunities Exist to Better Ensure Taxpayers Are Treated
                                               Equitably



be left without lien protection for 4 years or more if a bond or an I.R.C. § 6324A special lien is
not obtained and recorded with the appropriate local government office before the 10-year period
of the general estate tax lien expires.

Special extended estate tax liens may not be secured in all I.R.C. § 6166
installment payment cases
An Estate and Gift Tax Program or Estate and Gift Campus Operations supervisory attorney or
estate tax attorney determines whether an estate meets the eligibility requirements for installment
payments under I.R.C. § 6166. Prior to the April 2007 decision in the Estate of Roski case, IRS
procedures required the attorney in an examined I.R.C. § 6166 case to secure a bond or an
I.R.C. § 6324A special lien. In I.R.C. § 6166 cases that were accepted as filed or surveyed, the
attorney was required to send case information to the Collection Advisory Office to secure a
bond or an I.R.C. § 6324A special lien agreement and ensure the special lien was filed and
recorded. The estate tax attorney could not close the case until notified by the Collection
Advisory Office whether the bond or special lien had been secured. IRS procedures required
notification to the estate tax group if the bond or special lien could not be secured within 60 days
of receipt of the case by the Collection Advisory Office. The IRS has informed us that, in light
of the Estate of Roski case, they are revising procedures to provide that all eligible I.R.C. § 6166
installment payment cases will be forwarded to the Collection Advisory Office to determine if a
bond or a special lien should be required and, if so, to obtain the bond or special lien agreement
with the estate and ensure any special lien obtained is filed and recorded.
We reviewed a judgmental sample of 245 open I.R.C. § 6166 installment payment cases14 and
found 92 (37.5 percent) cases in which an ICS case history had not been established. The current
balance due on the 92 cases is more than $79 million. Based on this information, we concluded
the Estate and Gift Tax Program field attorneys may not always be providing lien information to
the Collection Advisory Office requesting that an I.R.C. § 6324A special lien or bond be
secured. If lien packages are not sent to the Collection Advisory Office, then special liens15 may
not be obtained. In such cases, the Federal Government’s interests may not be protected for the
years of the I.R.C. § 6166 installment payment period that extend beyond the 10-year period of
the general estate tax lien.
During discussions with IRS management, we were informed that other processing events may
have resulted in the absence of an open ICS file on the installment payment cases we reviewed.
These events include cases with I.R.C. § 6166 elections that were fully paid prior to the
completion of the lien package, cases in which a final tax determination had not been made and
the lien was not yet filed, cases in which liens were filed by Estate and Gift Tax personnel in

14
   These cases were selected based on the closing date of the examination so that the interim guidance dated January
2003 on handling I.R.C. § 6166 elections had already been issued.
15
   We did not confirm whether the special liens were recorded at the appropriate county and/or State recording
offices.
                                                                                                            Page 6
                     The Estate Tax Collection Process Has Improved, but
                   Opportunities Exist to Better Ensure Taxpayers Are Treated
                                            Equitably



field offices and not recorded on the ICS, and cases that may have been sent to the Collection
Advisory Office but not input into the ICS at the time of our review. We were also advised that
in January 2007, the Director, Specialty Programs, reissued interim procedures to reinforce the
control, handling, and disposition of I.R.C. § 6166 election estate tax cases.

Recommendations
Recommendation 1: The Director, Collection, should take steps to enhance the internal
controls on the lien tracking system currently in place for I.R.C. § 6324A special estate tax liens.
Procedures and guidelines on entering and monitoring of liens on this system should be provided
to all employees. Guidelines should be updated to reflect the use of this system and interim
guidelines should be issued immediately. Additionally, periodic reconciliations should be
performed to ensure that all I.R.C. § 6324A special liens are being timely recorded in the
relevant local government office and timely released.
       Management’s Response: IRS management agreed with the recommendation. They
       plan to a) distribute a memorandum providing interim procedures for lien tracking, entry
       and monitoring, and explaining system enhancements; b) issue procedures and guidelines
       in IRM Sections 5.12.2 and 5.12.6 for lien tracking, entry and monitoring, and explaining
       system enhancements; and c) incorporate reviews during annual estate tax lien reviews at
       the Cincinnati Campus to ensure that all I.R.C. § 6324A special liens are properly
       recorded and released.
Recommendation 2: The Director, Specialty Programs, needs to update controls on
I.R.C. § 6166 installment payment cases to ensure that lien packages are sent to the Collection
Advisory Office to determine whether a bond or an I.R.C. § 6324A special lien should be
secured.
       Management’s Response: IRS management agreed with the recommendation. They
       plan to implement the following actions to ensure compliance with established
       procedures: a) distribute a memorandum establishing interim procedures for technical
       staff in the campus and field Estate and Gift Tax operations to follow in order to solicit
       acknowledgement from the Collection Advisory Office that lien packages have been
       received and to ensure case files contain evidence of receipt in the Collection Advisory
       Office, b) issue procedures and guidelines in IRM Sections 4.25.1 and 4.25.2 to verify
       receipt of lien packages by the Collection Advisory Office, and c) evaluate the feasibility
       of matching Estate and Gift systemic data with Collection systemic data to confirm that
       all estate tax returns having a balance due and qualifying for I.R.C. § 6166 installment
       payments are referred to the Collection Advisory Office.




                                                                                             Page 7
                           The Estate Tax Collection Process Has Improved, but
                         Opportunities Exist to Better Ensure Taxpayers Are Treated
                                                  Equitably



Requests for Extensions of Time to Pay on Estate Tax Cases Could
Be More Responsive to Estate Taxpayers
Estate taxpayers may extend the time of payment of estate taxes under I.R.C. § 6161. To qualify,
the estate must complete the Application for Extension of Time to File a Return and/or Pay U.S.
Estate (and Generation-Skipping Transfer) Taxes (Form 4768) and attach a statement of
reasonable cause. The statement must establish why it is not possible or practical for the
executor to pay the full amount of the estate tax by the due date. If an extension is granted, the
I.R.C. provides that the estate must pay interest on the account but no penalty is charged for
failure to timely pay the tax due.

Requests for extensions of time to pay the estate tax were not properly evaluated
All requests for payment extension are received by the Estate and Gift Tax Program for
processing. Requests for extensions to pay will be transferred to the Collection Advisory Office,
if:
           1. The amount of tax due is $500,000 or more, and it is the initial request.
           2. The amount of tax due is $100,000 or more, and it is the second request.
           3. The amount of tax due is $25,000 or more, and it is the third request.
           4. It is the fourth or subsequent request, regardless of dollar amount.
Requests for payment extension cases may be evaluated more effectively by the technical experts
in the Collection Advisory Office than by the less technical Cincinnati Campus Compliance
Operations staff. The current process allows similarly situated taxpayers to be treated
differently. The Collection Advisory Office’s procedures provide that additional reviews are to
be conducted, taxpayers are to be contacted, and asset valuations are to be completed prior to
approving an extension. The same procedures used by the Collection Advisory Office are not
required procedures in the Estate and Gift Tax Campus Operations, Cincinnati Compliance
Center guidelines. Essentially, the Estate and Gift Tax Program’s tax examiners approve the
extensions to pay for 12 months if a reasonable cause is given. Rarely is a case disapproved,
unless it is not timely filed or is extended more than 12 months. The Estate and Gift Tax
Program’s tax examiners do not have sufficient guidelines to properly evaluate whether
reasonable cause has been established to explain the need for an extension.
To verify our observation, we reviewed a judgmental sample of 67 payment extension cases16
from Fiscal Years 2002 through 2007. These cases were selected from the Estate and Gift Tax
Campus Operations, Cincinnati Compliance Center and the Collection Advisory Office in
Cincinnati. We found 6 (9 percent) discrepancies made in processing the payment extensions.

16
     A judgmental sample was used because statistical projections were considered to be unnecessary.
                                                                                                       Page 8
                     The Estate Tax Collection Process Has Improved, but
                   Opportunities Exist to Better Ensure Taxpayers Are Treated
                                            Equitably



These discrepancies included 4 cases that were not forwarded to the Collection Advisory Office
when meeting the referral criteria and 2 cases that were sent to the Collection Advisory Office
between 3 and 6 months from the date of receipt in the Estate and Gift Tax Campus Operations,
Cincinnati Compliance Center.
Sound tax policy and practice requires treating similar taxpayers in a similar and equitable way.
There is an inequity in the treatment of estate taxpayers depending on where the payment
extension is processed within the IRS. Estate taxpayers with payment extensions processed by
the Estate and Gift Tax Campus Operations, Cincinnati Compliance Center are granted payment
extensions more readily than estate taxpayers with payment extensions processed in the
Collection Advisory Office.
The Collection Advisory Office criteria for granting an installment agreement requires additional
taxpayer information and evidence. In addition to establishing reasonable cause, cases referred
to the Collection Advisory Office require an analysis of the progress of efforts being made to
borrow or liquidate assets or to otherwise pay the amounts to be extended. Some additional
information required in this analysis may include balance sheets listing all assets, disbursements,
liabilities, and earnings for the estate and relating to the prior extension period; an accounting of
the actions taken during the past extension period to resolve the indebtedness; and information
on the executor’s proposal to make partial payments during the extension period being requested.
The Collection Advisory Office also solicits and receives payments from some taxpayers during
the payment extension process, which was not evident in the cases processed by the Estate and
Gift Tax Program. Assigning all payment extension cases to the Collection Advisory Office
would better ensure estate taxpayers are treated equitably.
The complexity of estate taxes adds to the importance of assigning all payment extension cases
to the Collection Advisory Office. Estate taxpayers requesting extensions to pay would benefit
from a more thorough review by technical experts in the Collection Advisory Office due to the
complexity of estate tax returns. The IRS states on its web site that by the time most estates
reach $1 million there is usually some complexity involved. Only total taxable estates that
exceeded $1.5 million in Tax Years 2004 and 2005 will actually file and pay tax. For Tax
Years 2006 through 2008, the amount increased to $2 million. In order to determine the tax due,
includable property may consist of cash and securities, real estate, insurance, trusts, annuities,
business interests, and other assets. The Collection Advisory Office would be in a better position
to conduct this review.

Estates with extensions to pay were not properly advised of their taxpayer rights
The Cincinnati Compliance Center, Estate and Gift Tax Campus Operations, could improve its
service to estate taxpayers by sending out notification that their extensions to pay are granted.
Estate taxpayers are not aware if their payment extensions have been granted and are generating
additional correspondence with the IRS to request notification of whether their payment


                                                                                              Page 9
                       The Estate Tax Collection Process Has Improved, but
                     Opportunities Exist to Better Ensure Taxpayers Are Treated
                                              Equitably



extensions have been granted. Also, Your Rights as a Taxpayer (Publication 1) is not being sent
to estate taxpayers who request an extension to pay.
Prior to Tax Year 2006, the Estate and Gift Tax Program sent out letters to taxpayers advising
them that their extension had been approved, while also providing Publication 1. However,
beginning in Tax Year 2006, the IRS discontinued notifying taxpayers of whether the extensions
to pay had been granted. Providing a timely response to taxpayers’ requests for payment
extensions promotes good taxpayer relations. In addition, improving customer service continues
to be a focus of the IRS Strategic Plan for Fiscal Years 2005 - 2009 and was listed as a priority
of the Small Business/Self-Employed Division in its Fiscal Year 2006-2007 Business Plan.
According to IRS management, the decision not to notify estate taxpayers of the granting of
extensions to pay resulted from a Calendar Year 2005 cross-functional task force.17 The task
force was formed to review Form 4768 and simplify the Form and extension process and make
the Form consistent with other extension forms. The IRS does not notify non-estate taxpayers of
the granting of the extension to file. However, estate taxpayers may request an extension to pay
along with an extension to file on the Form 4768.

Recommendations
Recommendation 3: The Directors, Collection and Specialty Programs, should reassess
whether estate cases requesting payment extensions are being worked by employees with proper
technical expertise to ensure estate taxpayers receive equitable tax treatment and estate taxes are
collected.
        Management’s Response: IRS management agreed with the recommendation. They
        plan to a) assemble a team, including representatives of Small Business/Self-Employed
        Division Directors for Collection, Specialty Programs, and Campus Compliance Services,
        to evaluate the criteria for referring payment extension requests to the Collection
        Advisory Office and the adequacy of guidance provided to campus personnel making
        decisions about granting extensions to pay; b) consider the technical expertise needed to
        evaluate the requests and decide on changes which may be needed to ensure proper
        consideration is given to all requests for extensions to pay; c) distribute a memorandum
        establishing interim procedures, if appropriate, for referring payment extension requests
        to the Collection Advisory Office; d) revise technical guidance, if appropriate; and
        e) issue procedures and guidelines in IRMs 5.5.5 and 4.25.2, if appropriate, for referring
        payment extension requests to the Collection Advisory Office.


17
  The task force members included personnel from the Office of Taxpayer Burden Reduction; Media and
Publications, Tax Forms and Publications, and Submission Processing, Individual Master File Policy from the Wage
and Investment Division; and the Estate and Gift Tax Program, and Chief Counsel from the Small Business/
Self-Employed Division.
                                                                                                       Page 10
                    The Estate Tax Collection Process Has Improved, but
                  Opportunities Exist to Better Ensure Taxpayers Are Treated
                                           Equitably



Recommendation 4: The Director, Specialty Programs, should notify the taxpayer when his
or her payment extension has been granted. Procedures should be developed to ensure that
estates requesting payment extensions are sent a copy of the Form 4768 notating its approval and
a letter explaining the terms of the extension. In addition, Publication 1 should be sent
explaining the taxpayer’s rights.
       Management’s Response: IRS management partially agreed with the
       recommendation. They conclude that a form letter indicating the approval date and terms
       of the extension will suffice and will require fewer resources than providing the taxpayer
       with a copy of the Form 4768. IRS management plans to a) draft an extension to pay
       approval notification letter for review/approval, b) distribute a memorandum establishing
       interim procedures, and c) issue procedures in IRM 4.25.2 for the processing of the
       notification letter along with Publication 1.
       Office of Audit Comment: Although IRS management did not fully agree with our
       recommendation to send a copy of the Form 4768 notating its approval and a letter
       explaining the terms of the extension to estate taxpayers, we considered their alternative
       corrective action and found it to be satisfactory.




                                                                                          Page 11
                        The Estate Tax Collection Process Has Improved, but
                      Opportunities Exist to Better Ensure Taxpayers Are Treated
                                               Equitably



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the corrective actions
taken in response to the recommendations in a prior Treasury Inspector General for Tax
Administration report.1 Also, we determined whether the Small Business/Self-Employed
Division is ensuring that correct and necessary actions are taken to protect the Government’s
interest when collecting estate taxes. To accomplish the objective, we:
I.      Determined whether corrective measures were taken by the IRS to ensure the proper
        collection of estate taxes and whether taxpayers’ rights were protected during this
        process.
        A. Reviewed corrective actions taken to resolve the IRS’ process for collecting estate
           taxes as a result of the previous audit’s findings and recommendations.
             1. Identified how and when corrective actions were implemented in response to the
                findings requiring a corrective action from the original report.
             2. Evaluated the adequacy and effectiveness of corrective measures taken.
             3. Reviewed the adequacy of the compensating controls for the reconciliation of
                liens for estate tax cases. Also, we determined whether liens had been filed for
                estates with a status indicator for an I.R.C. § 6166 installment payment election.
                We judgmentally selected a sample of 245 installment elections,2 from a
                population of approximately 3,500 open installment cases that were being
                monitored by the Estate and Gift Tax Campus Operations, Cincinnati Compliance
                Center.3 We performed research on these cases on the Integrated Data Retrieval
                System4 to select cases based on a closed examination date. This data were then
                used to select our sample and review these cases with histories maintained by the
                Collection Advisory Office.
        B. Interviewed management in the Estate and Gift Tax Campus Operations, Cincinnati
           Compliance Center, Specialty Tax Program, Small Business/Self-Employed Division,

1
  The Internal Revenue Service Can Improve the Estate Tax Collection Process (Reference Number 2000-30-059,
dated March 2000).
2
  The original sample contained 250 installment elections; however, 5 cases did not have any available data on the
Integrated Data Retrieval System so we removed these cases from our sample.
3
  A judgmental sample was used because no projections were being made.
4
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 12
                        The Estate Tax Collection Process Has Improved, but
                      Opportunities Exist to Better Ensure Taxpayers Are Treated
                                               Equitably



             and Collection Advisory Office to determine whether procedures and guidelines had
             been implemented to ensure proper processing of installment agreements and
             payment extensions of estate taxes, proper recording and timely release of estate tax
             liens, and proper review of tax abatements to ensure these abatements do not occur
             prematurely or late.
        C. Determined whether the applicable Requests for Information Services5 had been
           submitted and computer programs had been changed and were in place to ensure that
           Collection Statute Expiration Dates6 were computed accurately.
II.     Tested the adequacy of corrective controls by reviewing a judgmental sample of cases
        selected from the Open and Closed extension listing dated October 2006 provided by the
        Estate and Gift Tax Campus Operations, Cincinnati Compliance Center. We selected
        65 payment extension cases and received 40 cases due to cases no longer being available
        for review.7 Additionally, we judgmentally selected 27 payment extension cases from the
        inventory on hand at the Collection Advisory Office in Cincinnati to bring our total to
        67 cases. We could not determine the total population of payment extension cases based
        on available IRS reports. We judgmentally selected cases due to time constraints. We
        reviewed these cases to determine whether:
        A. Payment extension cases had a reasonable cause statement attached.
        B. Internal Revenue Manual and interim internal control procedures were being followed
           in the processing of payment extension cases.
        C. Balance-due notices and explanation of rights had been issued and interest had been
           assessed on payment extension cases.




5
  A formal memorandum requesting Business Systems Development organization support for changes to current or
planned programming, corporate hardware, software applications, system testing, and other organization activities
used in processing tax information.
6
  The Collection Statute Expiration Date is a time period established by law to collect taxes. The time allowed to
collect the deferred estate tax in an I.R.C. § 6166 case is suspended during the entire installment payment period,
and begins to run again if the I.R.C. § 6166 election is terminated (e.g., for failure to make one or more required
installment payments).
7
  A judgmental sample was used because the audit universe could not be determined and we could not project our
results.
                                                                                                           Page 13
                   The Estate Tax Collection Process Has Improved, but
                 Opportunities Exist to Better Ensure Taxpayers Are Treated
                                          Equitably



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
Lisa Stoy, Audit Manager
Donna Saranchak, Lead Auditor
Frank Maletta, Auditor




                                                                                        Page 14
                   The Estate Tax Collection Process Has Improved, but
                 Opportunities Exist to Better Ensure Taxpayers Are Treated
                                          Equitably



                                                                            Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Director, Campus Compliance Operations, Cincinnati, Small Business/Self-Employed Division
SE:S:CCS:CCO:CIN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Director, Office of Legislative Affairs CL:LA
Audit Liaison: Small Business/Self-Employed Division SE:S:CLD




                                                                                    Page 15
      The Estate Tax Collection Process Has Improved, but
    Opportunities Exist to Better Ensure Taxpayers Are Treated
                             Equitably



                                                     Appendix IV

Management’s Response to the Draft Report




                                                           Page 16
  The Estate Tax Collection Process Has Improved, but
Opportunities Exist to Better Ensure Taxpayers Are Treated
                         Equitably




                                                       Page 17
  The Estate Tax Collection Process Has Improved, but
Opportunities Exist to Better Ensure Taxpayers Are Treated
                         Equitably




                                                       Page 18
  The Estate Tax Collection Process Has Improved, but
Opportunities Exist to Better Ensure Taxpayers Are Treated
                         Equitably




                                                       Page 19
  The Estate Tax Collection Process Has Improved, but
Opportunities Exist to Better Ensure Taxpayers Are Treated
                         Equitably




                                                       Page 20
